OIG Investigative Report Dallas TX 10/25/2011 - Dallas Man Sentenced To Federal Prison For Defrauding Federal Student Loan Program
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigative Report
U.S. Department of Justice
U.S. Attorney's Office
Western District of Texas
Robert Pitman, U.S. Attorney
FOR IMMEDIATE RELEASE
On the web: www.usdoj.gov/usao/txw/index.html
October 25, 2011
Daryl Fields, Public Information Officer
(210) 384-7440
Dallas Man Sentenced To Federal Prison For Defrauding Federal Student Loan Program
United States Attorney Robert Pitman announced that in Austin this afternoon, 48-year-old Solomon Hobbs, Jr., (a.k.a. Virgil Clinton Powell) of Dallas, Texas, was sentenced to 57 months in federal prison in connection with a scheme to fraudulently obtain over $37,000 in student loans.
In addition, United States District Judge Lee Yeakel ordered that Hobbs pay $37,395.00 restitution and be placed under supervised release for a period of five years after completing his prison term.
In August, Hobbs pleaded guilty to three counts of wire fraud, three counts of student assistance program fraud and one count of aggravated identity theft. By pleading guilty, Hobbs admitted that since 2004, he developed a scheme to fraudulently obtain $37,395.05 in federal student financial aid, including $6,573.50 by using another individual's name and identifying information, from five universities in Texas including: University of Texas at Tyler, University of Texas at El Paso, University of Texas at Arlington, Midwestern State University (Wichita Falls) and Texas State University. Hobbs further admitted that he had no intent of using the financial aid for educational expenses after repeatedly obtaining funds, then failing out of the institutions due to his lack of attendance.
This case was investigated by the U.S. Department of Education Office of Inspector General. Assistant United States Attorney Jennifer Freel prosecuted this case on behalf of the Government.
#####
Top
Printable view
Last Modified: 11/07/2011
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov